Nos. 19-840, 19-841

In the Supreme Court of the United States
STATE OF CALIFORNIA, ET. AL.,

Petitioners,

AND

UNITED STATES HOUSE OF REPRESENTATIVES,

Petitioner,

V.

STATE OF TEXAS, ET. AL.,

Respondents,

AND

UNITED STATES OF AMERICA, ET. AL.,

Respondents.

ON PETITIONS FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
I hereby certify that on January 10, 2020, one (1) copy of the Individual
Respondents’ Opposition to California et. al’s and United States House of
Representatives’ Motion to Expedite Consideration of the Petition for a Writ of
Certiorari, to Expedite Merits Briefing and Oral Argument in the event that the
Court Grants the Petition, and to Expedite Consideration of this Motion in the above-

captioned case was served, as required by U.S. Supreme Court Rules 21.3 and 29.5(c),
on the following:
Douglas N. Letter
General Counsel
Office of the General Counsel
U.S. House of Representatives
219 Cannon House Office Building
Washington, D.C. 20515
(202) 225-9700
Counsel for the U.S. House
Representatives

Kyle D. Hawkins
Solicitor General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
(512) 936-1700
Counsel for the State of Texas, et al.

of

Noel J. Francisco
Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW Room
5616
Washington, D.C. 20530-0001
(202) 514-2217
Counsel for the United States of America,
et al.

Xavier Becerra
Attorney General of California
Michael J. Morgan
Solicitor General
Samuel P. Siegel
Helen H. Hong
Deputy Solicitors General
Kathleen Boergers
Supervising Deputy Attorney General
Nimrod Pitsker Elias
Neli N. Palma
Deputy Attorneys General
Amari L. Hammonds
Associate Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
Counsel for State of California

2

The following email addresses have also been served electronically:
douglas.letter@mail.house.gov
kyle.hawins@oag.texas.gov
supremectbriefs@usdoj.gov
sam.siegel@doj.ca.gov
/s/Robert Henneke
ROBERT HENNEKE

3

